TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
                            Office of Inspections and Evaluations




                       Review of the Implementation of the
                       Telework Enhancement Act of 2010



                                           July 11, 2013

                            Reference Number: 2013-IE-R006




    This report has cleared the Treasury Inspector General for Tax Administration (TIGTA) disclosure
           review process and information determined to be restricted from public release has
                                   been redacted from this document.




 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                        DEPARTMENT OF THE TREASURY
                                              WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   July 11, 2013


 MEMORANDUM FOR HUMAN CAPITAL OFFICER


 FROM:                           R. David Holmgren
                                 Deputy Inspector General for Inspections and Evaluations

 SUBJECT:                        Final Inspection Report – Review of the Implementation of the
                                 Telework Enhancement Act of 2010 (# IE-13-004)

 This report presents the results of our inspection to determine whether the Internal Revenue
 Service (IRS) has taken appropriate actions for compliance with the Telework Enhancement Act
 of 2010 (hereafter referred to as the Act).1 We did not evaluate the effectiveness of the IRS
 Telework Program in this review.

 Synopsis
 The President and Congress encourage increased participation in telework by Federal agencies in
 order to ensure continuity of operations during an emergency, reduce overhead, and improve
 employees’ ability to manage their work life obligations. The IRS implemented most of the
 requirements of the Act, establishing a telework policy that includes requirements for eligibility,
 as well as employee and manager requirements for issues, such as performance, training, and
 completing a written telework agreement. The IRS’s Headquarters Continuity of Operations
 Plan recommends telework in appropriate situations.
 One purpose of telework is to ensure that Federal agencies can continue to provide services when
 offices are closed due to inclement weather, a pandemic, or an emergency; however, IRS
 teleworkers are required to telework in an emergency only on their scheduled telework day(s).
 Management anticipates negotiating with the National Treasury Employees Union to require
 teleworkers to work from alternative locations on an unscheduled telework day(s) when the
 office is closed due to an emergency. However, the IRS could implement this policy for
 non-bargaining unit employees without negotiations.


 1
     Pub. L. No. 111-292, 124 Stat. 3165 (2010).
                                Review of the Implementation of the
                                Telework Enhancement Act of 2010



Also, while the IRS captures and reports some telework data, it cannot provide the level of detail
required by the Act due to some systems limitations. The time and attendance system captures
hours worked under the Telework Program, but not in days. Also, it captures employees whose
telework type code is selected in the time and attendance system, but not the number of eligible
employees. According to the Telework Program Manager,2 the IRS is considering how to best
meet the reporting requirements but changes to the existing time reporting system may be cost
prohibitive and must also be negotiated with the National Treasury Employees Union.

Recommendations
We recommend that the IRS Human Capital Officer revise the IRS’s telework policy to indicate
that a non-bargaining unit employee with an approved telework agreement can be expected to
telework outside his or her normal telework schedule in the case of an emergency situation.
Additionally, the Human Capital Officer should require that telework agreements include
specific language indicating whether or not the employee is expected to telework when the office
is closed due to an emergency.

Response
Management partially agreed with our recommendations to require non-bargaining unit
teleworkers to telework when the office is closed due to emergency, and include emergency
expectations for teleworkers in telework agreements. To ensure that all IRS employees are
treated consistently, changes to telework requirements for bargaining unit employees will be
addressed with the National Treasury Employees Union in upcoming term negotiations.
Implementation for both bargaining and non-bargaining unit employees will be contingent on the
outcome of these negotiations.
Please contact me at (202) 927-7048 if you have questions, or Kevin P. Riley, Director, Office of
Inspections and Evaluations, at (972) 249-8355.




2
    The Telework Program is included in a division of the Human Capital Office.
                                                                                                 2
                                             Review of the Implementation of the
                                             Telework Enhancement Act of 2010




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 2
          Areas Where the Internal Revenue Service
          Met Requirements of the Act ........................................................................ Page 2
          Areas Where the Internal Revenue Service
          Is Working to Fully Meet Requirements ...................................................... Page 7
                    Recommendations 1 and 2: ................................................ Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 11
          Appendix II – Major Contributors to This Report ........................................ Page 12
          Appendix III – Report Distribution List ....................................................... Page 13
          Appendix IV – Completed Telework Requirement Checklist ...................... Page 14
          Appendix V – Management’s Response to the Draft Report ....................... Page 17
          Review of the Implementation of the
          Telework Enhancement Act of 2010




             Abbreviations

COOP   Continuity of Operations Plan
IRS    Internal Revenue Service
NTEU   National Treasury Employees Union
OPM    Office of Personnel Management
                                       Review of the Implementation of the
                                       Telework Enhancement Act of 2010




                                             Background

Telework is a work flexibility arrangement under which
an employee performs the duties and responsibilities of       Telework provides a number
                                                              of benefits including reduced
his or her position from an approved worksite other than     energy consumption and traffic
the location from which the employee would otherwise         congestion, competitive hiring
work. Telework does not include work in other                  and retention, cost savings,
Government offices, taxpayer or customer sites, or             and support for emergency
training sites. Telework provides a number of benefits        preparedness    and continuity
                                                                      of operations.
including reduced energy consumption and traffic
congestion, competitive hiring and retention, cost
savings such as real estate, and support for emergency preparedness and continuity of operations.
Telework also improves employee job satisfaction and the ability to manage work life
obligations.
The Telework Enhancement Act of 20101 (hereafter referred to as the Act) expanded on telework
legislation of 2000,2 which first required executive agencies to establish a policy under which
eligible employees may telework to the maximum extent possible without diminished employee
performance. The Act was designed to ensure a more systematic implementation of telework in
Federal agencies. According to the Office of Personnel Management (OPM), satisfying the
requirements of the Act has meant a fundamental shift in how agency stakeholders view and
implement telework—from a strictly individual benefit to a strategic organizational change
program. In September 2012, 24 percent of all Internal Revenue Service (IRS) employees were
teleworking.
This inspection was performed at the IRS Headquarters in Washington, D.C., in the Office of the
Human Capital Officer, during the period January through February 2013. We conducted this
inspection in accordance with the Council of the Inspectors General for Integrity and Efficiency
Quality Standards for Inspections. The inspection does not attempt to assess the effectiveness of
the IRS’s Telework Program; it is limited to determining the IRS’s compliance with the
applicable requirements of the Act. Detailed information on our objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




1
    Pub. L. No. 111-292, 124 Stat. 3165 (2010).
2
    Pub. L. No. 106-346–Appendix, § 359, 114 Stat. 1356A-36 (2000).
                                                                                           Page 1
                                       Review of the Implementation of the
                                       Telework Enhancement Act of 2010




                                      Results of Review

The IRS complied with the requirements included in the Act except for a few areas due to
financial or systemic limitations or requiring additional negotiations with the National Treasury
Employees Union (NTEU). We have included a checklist of completed requirements in
Appendix IV.

Areas Where the Internal Revenue Service Met Requirements

The IRS established a telework policy and notified employees about eligibility to
telework
Eligibility
The Act required agencies to:
       Establish a policy under which eligible employees may be authorized to telework;
       Determine the eligibility for all employees to participate in telework; and
       Notify employees of their eligibility no later than June 8, 2011.
The IRS formalized its telework policy into the Internal Revenue Manual3 6.800.2, Employee
Benefits, IRS Telework (Flexiplace) Program. The policy is also included in Article 50 of the
2012 National Agreement II negotiated with the NTEU. The policy requires that three categories
of eligibility requirements must be met to enter into a telework arrangement:
       Position;
       Worksite; and
       Employee.
Position – generally, all positions may be eligible for some type of telework unless the employee
is in a trainee or entry-level position, or Privacy Act, security, or health safety concerns cannot
be adequately addressed. Additionally, employees cannot telework if they are in positions that
require:



3
 The Internal Revenue Manual is the IRS’s primary source of instructions to its employees relating to the
administration and operation of the IRS. The manual contains the directions employees need to carry out their
operational responsibilities.
                                                                                                            Page 2
                                      Review of the Implementation of the
                                      Telework Enhancement Act of 2010



       Daily access to Personally Identifiable Information and sensitive materials are needed
        and may not be removed from the official worksite (duty station) or are not accessible by
        computer;
       Regular face-to-face contact or other on-site activities are needed to fill requirements of
        the position and cannot be adequately achieved at a telework site;
       Special facilities or equipment necessary to perform the job cannot be made available; or
       Duplication of security at an alternate site is too costly.
Worksite – it must be within a 125 mile radius of the employee’s assigned IRS post of duty,
unless an exception is approved, and include the following provided by the employee:
       A telephone;
       High-speed internet or an air-card from an IRS-approved provider if the work requires
        IRS network connectivity;
             o Note: Except where the IRS provides an air-card consistent with the information
               technology profile of the employee, the cost of these will not be paid by the IRS.4
       Workspace suitable to perform work;
       Utilities adequate for installing equipment; and
       An environment that is free from interruptions and provides reasonable security and
        protection for Government property and information.
Employee – in order to telework, an employee must:
       Work in a position with job duties and responsibilities that can be effectively
        accomplished outside of the traditional office/team setting;
       For frequent telework,5 occupy a position outlined in Article 50 of the National
        Agreement II or request consideration;
       Have been employed by the IRS for at least 12 months;6
       Have a current performance rating of at least “Fully Successful” (or equivalent);


4
  In June 2010, the IRS and NTEU signed a Memorandum of Understanding that created standard information
technology equipment profiles for each occupation in the IRS. The intent was so that employees in the same jobs
received the same equipment.
5
  Frequent telework includes regular and recurring duties that may be performed at the approved telework site for
more than 80 hours each month.
6
  The manager may shorten the one-year service requirement on a case-by-case basis. A decision not to shorten the
time frame is not grievable except for alleged discrimination.
                                                                                                           Page 3
                                      Review of the Implementation of the
                                      Telework Enhancement Act of 2010



       Perform at the journey level or full working level of the position, or have worked in the
        position for more than two years,7 whichever is less;
       Complete telework training;
       Have an approved telework agreement;
       Have not received any disciplinary/adverse actions in the last 12 months that would
        impact the integrity of the Telework Program;
       Have not been disciplined for being absent without permission for more than five days
        (41 hours or more) in any one calendar year and the record of discipline remains in the
        official personnel folder; and
       Never have been officially disciplined for viewing, downloading, or exchanging
        pornography or child pornography on a Federal Government computer or while
        performing official Federal Government duties.
The IRS issued the notice of eligibility in a Service-wide announcement via e-mail on
June 2, 2011. The notice advised employees that eligibility and program requirements were
covered in National Agreement II, Article 50, and in the Internal Revenue Manual 6.800.2,
Employee Benefits, IRS Telework (Flexiplace) Program. Managers were not required to meet
with employees to discuss eligibility, but were provided with telework guidance prior to the
announcement so they could answer questions from employees on eligibility. An individual
determination is made when an employee requests to telework.
According to OPM’s 2012 report,8 the law did not specify the form that eligibility notification
should take. A “general, mass, or agency-wide e-mail” was the most frequently used method by
agencies.
Participation
The Act requires the telework policy to:
       Ensure that telework does not diminish employee performance or agency operations;
       Require a written agreement that is mandatory in order for any employee to participate in
        telework, and is between the manager and an employee authorized to telework that
        outlines the specific agreed work arrangement;
       Provide that an employee may not be authorized to telework if his or her performance
        does not comply with the terms of the written agreement; and


7
  The manager may shorten the two-year time frame on a case-by-case basis. A decision not to shorten the time
frame is not grievable except for alleged discrimination.
8
  2012 Status of Telework in the Federal Government, Report to Congress (June 2012).
                                                                                                          Page 4
                                         Review of the Implementation of the
                                         Telework Enhancement Act of 2010



          Be incorporated as part of the Continuity of Operations Plan (COOP)9 of the agency in
           the event of an emergency.
According to the Act, the policy does not apply to employees whose official duties require (on a
daily basis) the direct handling of secure materials determined to be inappropriate for telework
by the agency head or on-site activity that cannot be handled remotely or at an alternative
worksite.
The IRS’s telework policy requires that everyone who participates in the IRS Telework Program
must have a signed telework agreement. Each employee and his or her manager must sign the
telework agreement that specifies the terms and conditions of the employee’s telework
arrangement, such as work location and days, timekeeping responsibilities, and safeguarding of
Government property and records, as well as performance requirements.
According to the IRS’s telework policy and telework agreement, managers may temporarily
suspend, modify, or terminate a telework agreement any time an employee falls below minimum
eligibility standards; is issued a performance improvement plan, leave restriction letter, or intent
to deny a within-grade-increase; received any disciplinary action in the last 12 months that would
impact the integrity of the Telework Program; or the employee’s performance declines and the
decline may be reasonably attributable to telework.
The use of telework was incorporated in the IRS Headquarters COOP, which, according to the
Office of Continuity Operations, applies to all business units and functions. The COOPs for the
business units and functions provide the details to implement the Headquarters Plan. The Office
of Continuity Operations will include references to the IRS telework policy in the Headquarters
Plan by May 2013. By adding references rather than specific wording from the policy, the
COOP will not become outdated when changes are made to the policy.

Managers certify employee telework training and must treat teleworkers the same
as non-teleworkers
Training
The Act requires agencies to provide interactive telework training for employees and their
managers. Employees must complete the training before they enter into a telework agreement.
The Treasury Telework Program policy, issued in April 2012,10 further required that the telework
agreement include a certification of completion of the training for the employee and employee’s
supervisor. The IRS requires employees and their managers to complete the interactive training
provided for each in the IRS’s Enterprise Learning Management System (training system) before
entering into a written telework agreement. IRS guidance originally encouraged employees
already teleworking to complete the training to familiarize themselves with Telework Program

9
    A COOP establishes procedures to ensure the continued operation of functions in the event of an emergency.
10
    Chapter 301, Transmittal Number TN-12-004, Treasury Telework Program policy (April 19, 2012).
                                                                                                             Page 5
                                 Review of the Implementation of the
                                 Telework Enhancement Act of 2010



changes; however, the requirement was subsequently changed to require that all employees
complete the training.
Managers verify that the employee completed training using records maintained by the training
system. The IRS revised the telework agreement in November 2012 to include a certification by
the employee and the employee’s manager that the employee completed the telework training.
Consistent treatment of teleworkers and non-teleworkers
The Act requires that agencies ensure that teleworkers and non-teleworkers are treated the same
for:
      Job performance appraisals;
      Training, rewarding, reassigning, promoting, reducing in grade, retaining, and removing
       employees;
      Work requirements; and
      Other acts involving managerial discretion.
The IRS telework policy requires that performance expectations and standards for teleworkers
are the same as expectations of work which apply in the official worksite. Employees
participating in telework should have no higher performance expectations than those who are not
participating. The employees on telework are still held accountable for the rules of conduct,
performance standards, time and attendance, ethics, and all other regulations applicable to their
position. In accordance with OPM guidelines, the IRS processes for managing the performance
of all employees recommend:
     Planning work and setting expectations;
     Monitoring performance;
     Developing employee skills;
     Appraising performance; and
     Recognizing employees for their accomplishments.

The IRS telework policy complies with guidance developed under requirements of
the Act
The Act required the OPM and Office of Management and Budget to develop guidance in areas
affected under telework. The IRS incorporated OPM’s guidance into its policy in the areas of:
      Pay and leave;
      Performance management;

                                                                                           Page 6
                                       Review of the Implementation of the
                                       Telework Enhancement Act of 2010



        Official worksite;
        Recruitment and retention; and
        Accommodations for employees with disabilities.
The IRS followed Office of Management and Budget guidance in the areas of:
        Security; and
        Policy on purchasing computer equipment.
By signing the IRS telework agreement, the employee agrees to comply with IRS policies and
directives on security, privacy, and recordkeeping measures. The telework policy outlines the
responsibilities of the managers and employees to comply with security and disclosure
requirements, and to work with the IRS Information Technology staff to ensure that equipment
complies with IRS policy on information systems and computer security.11
According to the National Agreement II, negotiated with the NTEU, employees on frequent
telework12 are eligible for the computer that was provided to them before being approved for
frequent telework, equipped with remote access software. Employees on recurring13 or ad hoc14
telework are eligible for a loaner laptop to the extent available if not already issued a laptop as
part of their normal job duties.

Areas Where the Internal Revenue Service Is Working to Fully Meet
Requirements
The IRS does not require teleworkers to work when the office is closed for an
emergency on unscheduled telework days
The IRS is working to incorporate OPM’s guidance on agency closures. OPM emphasized that
Federal offices will be closed when it is unsafe for employees to commute; however, employees
who can telework in the safety of their homes generally should no longer be granted excused
absence. In its guide,15 the OPM explains that once an employee has an approved telework
agreement, he or she may be required to telework outside his or her normal telework schedule in

11
   We did not include a review of information and information systems in this inspection. The Treasury Inspector
General for Tax Administration’s Security and Information Technology Services audit group reviews IRS
information systems’ security.
12
   Frequent telework includes regular and recurring duties that may be performed at the approved telework site for
more than 80 hours each month.
13
   Recurring telework includes recurring work assignments performed at the approved telework site for 80 hours or
less per month.
14
   Ad hoc telework involves non-recurring projects or occasional work assignments that may be performed at the
approved telework site.
15
   Guide to Telework in the Federal Government (April 2011).
                                                                                                            Page 7
                                Review of the Implementation of the
                                Telework Enhancement Act of 2010



the case of a temporary emergency situation, if that understanding has been clearly
communicated by the agency in the written telework agreement. OPM noted that appropriate
collective bargaining obligations must be satisfied with employee representatives on telework
policies.
Additionally, the Treasury Telework Policy requires that telework agreements include a
statement that a teleworking employee is required to telework from home or take unscheduled
leave on days when the employee normally would work on-site but is prevented from doing so
by unforeseen conditions, which include inclement weather or other declared emergencies.
However, the applicability of the Treasury Telework Policy is also subject to collective
bargaining.
At the time of this inspection, IRS employees under a telework agreement have the option to
telework in the case of inclement weather or an emergency; however, teleworkers are only
required to work if the office is closed on their scheduled telework day(s). IRS management
advised us that they are currently negotiating with the NTEU to require teleworkers to telework
outside normal telework schedules in emergencies. However, the IRS could require
non-bargaining unit employees to work, if this requirement is documented in their telework
agreements. Successfully implementing this requirement will enhance the IRS’s ability to
complete its mission in the event that Government offices must be closed due to emergency.

Recommendations
The IRS Human Capital Officer should:
Recommendation 1:
Revise the IRS’s telework policy to indicate that a non-bargaining unit employee with an
approved telework agreement can be expected to telework outside his or her normal telework
schedule in the case of an emergency situation.
       Management’s Response: Management partially agreed with our recommendation.
       The IRS will not implement any changes until telework requirements for bargaining unit
       employees are addressed with the NTEU in upcoming term negotiations. To ensure that
       all IRS employees are treated consistently, implementation for both bargaining and
       non-bargaining unit employees will be contingent on the outcome of those negotiations.
Recommendation 2:
Require that telework agreements include specific language on whether the employee is
expected to telework when the office is closed due to an emergency.
       Management’s Response: Management partially agreed with our recommendation.
       The IRS will not implement any changes until telework requirements for bargaining unit
       employees are addressed with the NTEU in upcoming term negotiations. To ensure that

                                                                                          Page 8
                                Review of the Implementation of the
                                Telework Enhancement Act of 2010



       all IRS employees are treated consistently, implementation for both bargaining and
       non-bargaining unit employees will be contingent on the outcome of those negotiations.

The IRS cannot meet all the Act’s reporting requirements due to some system
limitations
The Act requires the OPM, in conjunction with the Chief Human Capital Officers Council, to
report annually on the Telework Program of executive agencies. In addition to other reporting
requirements, the IRS must report to the Department of the Treasury:
      The total number of employees;
      The number of employees eligible to telework;
      The number of employees teleworking
       o three or more days per pay period,
       o one or two days per pay period,
       o once per month, and
       o on an occasional, episodic, or short-term basis;
      If the total number of employees teleworking is 10 percent higher or lower than the
       previous year, the reasons; and
      The goals for the percentage of eligible employees to telework next year.
The IRS uses its time and attendance system to capture telework data reported to the Department
of the Treasury for inclusion in the OPM report. The system includes a field for employees with
an approved telework agreement to indicate whether they are approved for frequent, recurring, or
ad-hoc telework. The IRS cannot readily report the degree of telework participation in
accordance with OPM requirements because the system does not capture eligibility and does not
capture telework in days.
The IRS reports the number of employees eligible to telework based on the number of employees
whose telework type is selected in the time and attendance system. However, this method does
not count the employees who are eligible to telework but do not have telework agreements.
In order to report the number of employees who worked one, two, or three or more days per pay
period, the IRS must convert the hours reported under telework to days by counting eight hours
as one day. The system cannot capture the number of employees who worked once per month or
occasionally, episodic, or on a short-term basis. According to the Telework Program Manager,
the IRS is exploring options to comply with reporting requirements, but the cost may be
prohibitive. Changes must also be negotiated with the NTEU.


                                                                                             Page 9
                                  Review of the Implementation of the
                                  Telework Enhancement Act of 2010



The percentage of all IRS employees teleworking increased from 20 percent (almost 21,000) of
all employees in September 2011 to 24 percent (almost 24,000) of all employees in
September 2012, an increase of 20 percent. IRS management attributes the increase to increased
marketing and acceptability. Those responsible for the IRS Telework Program worked with the
business units to educate them on how telework is advantageous to the Government.
                   Figure 1: Number of IRS Employees Teleworking

                  120,000

                  100,000

                   80,000
                                                                    Total Number of
                   60,000                                           Employees
                                                                    Teleworking
                   40,000                                           Employees

                   20,000

                        0
                            September 2011 September 2012

                Source: Telework Program Manager, IRS Human Capital Office.

Although participation goals are required for each frequency category—one, two, or three or
more days per pay period—the IRS cannot report goals in this detail because the time and
attendance system does not provide the ability to capture this information accurately. Instead,
Program management set a Fiscal Year 2013 goal for 24 percent of all IRS employees to
participate in the Telework Program, up from the goal of 22 percent in Fiscal Year 2012.
The Act requires agencies to report participation goals based on the percentage of eligible
employees. However, the IRS’s 24 percent participation goal for Fiscal Year 2013 is based on
the percentage of total employees who are teleworking. Nevertheless, the numbers from year to
year provide a valid comparison from which to measure improvement.




                                                                                           Page 10
                                       Review of the Implementation of the
                                       Telework Enhancement Act of 2010



                                                                                            Appendix I

            Detailed Objective, Scope, and Methodology

The objective of this review was to determine whether the IRS has taken appropriate action for
compliance with Pub. L. No. 111-292, Telework Enhancement Act of 2010. We did not evaluate
the effectiveness of the IRS Telework Program in this review.
We did not include a review of the information and security protections over information and
information systems required by the Act. The Treasury Inspector General for Tax
Administration’s Security and Information Technology Services audit group reviews the IRS’s
Information Systems Security.
To accomplish the objective, we:
I.         Reviewed guidance recently issued regarding telework.
           A. Reviewed Pub. L. No. 111-292, Telework Enhancement Act of 2010.
           B. Reviewed OPM guidance.
           C. Reviewed the Treasury Telework Policy1 and any other telework guidance and
              policies of the Department of the Treasury.
II.        Determined what actions the IRS has taken regarding telework, and what remains to be
           addressed.
           A. Determined whether the IRS implemented telework requirements regarding eligibility
              and participation.
           B. Determined whether the IRS implemented requirements for training and monitoring.
           C. Determined whether the IRS implemented requirements for policy and support.
           D. Determined whether the IRS implemented participation requirements for reporting to
              the Department of the Treasury for the OPM.




1
    Chapter 301, Transmittal Number TN-12-004, Treasury Telework Policy (April 19, 2012).
                                                                                                 Page 11
                                Review of the Implementation of the
                                Telework Enhancement Act of 2010



                                                                      Appendix II

                 Major Contributors to This Report

Kevin P. Riley, Director, Inspections & Evaluations
James A. Douglas, Supervisory Evaluator
Dolores Castoro, Lead Auditor




                                                                           Page 12
                              Review of the Implementation of the
                              Telework Enhancement Act of 2010



                                                                    Appendix III

                         Report Distribution List

Principal Deputy Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief Technology Officer OS:CTO
Director, Employee Support Services OS:A:ESS
Director, Work-life Benefit and Engagement OS:HC:WBE
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Deputy Commissioner for Operations Support OS
       Chief Technology Officer OS:CTO
       Human Capital Officer OS:HC




                                                                          Page 13
                                       Review of the Implementation of the
                                       Telework Enhancement Act of 2010



                                                                                               Appendix IV

          Completed Telework Requirement Checklist

                                                                                                     Completed
                                         Requirement
                                                                                                     Yes or No
Telework Requirement
    1. Eligibility: The head of each agency must:
                Establish a policy under which eligible employees are authorized to
                                                                                                       Y
                 telework;
                Determine eligibility for all employees; and                                          Y1
                Notify all employees of their eligibility to telework.                                Y2
    2. Participation: The telework policy must:
                Ensure that participation does not diminish employee performance;                     Y
                Require a written agreement between the employee and manager
                                                                                                       Y
                 outlining the employee’s specific work agreement; and
                Be incorporated as part of the agency’s COOP in the event of an
                                                                                                               N3
                 emergency.
Training and Monitoring
    3. Training: The head of each agency must ensure that:
                An interactive training program is provided to employees eligible to
                                                                                                       Y
                 telework and managers of teleworkers; and
                The employee must successfully complete the training before
                                                                                                       Y
                 entering into a written telework agreement.



1
  Determinations were not made on an individual basis regarding notices of eligibility. However, broad
determinations were made for occupations as to eligibility for telework types. Final determinations are made on an
individual basis.
2
  An e-mail was issued notifying employees that the policy for eligibility was in the Internal Revenue Manual and
National Agreement II. However, some employees have limited access to e-mail (must go to a business center or
kiosk), and managers were not required to discuss eligibility with employees. Managers were provided with
guidance so they could answer questions on eligibility.
3
  The Office of Continuity Operations plans to add references to the telework policy in the COOP by May 2013.
                                                                                                            Page 14
                                       Review of the Implementation of the
                                       Telework Enhancement Act of 2010




                                                                                                     Completed
                                         Requirement
                                                                                                     Yes or No
    4. Monitoring: The head of each agency must ensure that teleworkers and
       non-teleworkers are treated the same for:
                Job Performance Appraisals;                                                           Y
                Training, rewarding, reassigning, promoting, reducing in-grade,
                                                                                                       Y
                 retaining, and removing employees;
                Work requirements; and                                                                Y
                Other acts requiring managerial discretion.                                           Y
Policy and Support
    5. Policy: Provide policy and guidance consistent with OPM on:
                Pay and leave;                                                                        Y
                Agency closure;                                                                               N4
                Performance management;                                                               Y
                Official worksite;                                                                    Y
                Recruitment and retention; and                                                        Y
                Accommodations for employees with disabilities.                                       Y
    6. COOP: Incorporate telework into the continuity of operations plan.                              Y
    7. Security Guidelines: Provide applicable security guidelines.                                    Y5
    8. Policy on Purchasing Computer Systems: Establish a policy when
                                                                                                       Y6
       purchasing computer systems regarding enabling and supporting telework.




4
  The OPM and the Department of the Treasury guidance recognize that further changes in this area require
negotiation with NTEU for bargaining unit employees, which the IRS has already begun. However, the IRS could
implement guidance issued by the OPM and the Department of the Treasury for non-bargaining unit employees.
5
  The IRS policy outlines the responsibilities of the managers and employees to comply with security and disclosure
requirements; however, we did not include a review of information and information systems in this inspection. The
Treasury Inspector General for Tax Administration’s Security and Information Technology Services audit group
reviews IRS information system’s security.
6
  The IRS established a policy for creating standard technology equipment portfolios for each occupation prior to
passage of the Act; however, the National Agreement II describes equipment to be provided for telework.
                                                                                                            Page 15
                                       Review of the Implementation of the
                                       Telework Enhancement Act of 2010




                                                                                                       Completed
                                         Requirement
                                                                                                       Yes or No
Reports
    9. Capture and report:
         The degree of participation by employees in telework including:
                 The number of employees in the agency;                                                 Y
                 The number and percentage of employees in the agency who are
                                                                                                                 N7
                  eligible to telework;
                 The number and percentage of eligible employees in the agency
                  that are teleworking
                  o three or more days per pay period;                                                   Y8
                  o one or two days per pay period;                                                      Y
                  o once per month; and                                                                          N
                  o on an occasional, episodic, or short-term basis.                                             N
           The method for gathering telework data;                                                       Y
           If the number of employees teleworking is 10 percent higher or lower
                                                                                                         Y
           than the previous year, the reasons for the variation;
           The agency goal for increasing participation to the extent practicable or
           necessary for the next reporting period, as indicated by the percentage of                   Y9
           eligible employees teleworking in each frequency category; and
           Explain whether or not the agency met the goal for the last reporting
                                                                                                         Y
           period.




7
  The number of employees eligible to telework is represented by the number of employees whose telework type is
selected in the time and attendance system.
8
  The IRS’s time and attendance system does not capture telework by days. This is computed by assuming that
every eight hours teleworked was one day. Also, the IRS uses an estimate of the number eligible because the
percentage of eligible employees cannot be accurately determined.
9
  The IRS set a participation rate goal for Fiscal Year 2013 but not by frequency category and not as a percentage of
eligible employees. Instead, the goal is that 24 percent of all employees telework. The time and attendance system
does not allow them to track more precise details.
                                                                                                              Page 16
            Review of the Implementation of the
            Telework Enhancement Act of 2010



                                                  Appendix V

Management’s Response to the Draft Report




                                                       Page 17
Review of the Implementation of the
Telework Enhancement Act of 2010




                                      Page 18
Review of the Implementation of the
Telework Enhancement Act of 2010




                                      Page 19
Review of the Implementation of the
Telework Enhancement Act of 2010




                                      Page 20
